<html>
<title> - The OSCE Office for Democratic Institutions and Human Rights: Accomplishments and Challenges</title>
<body><pre>[Joint House and Senate Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




        

     THE OSCE OFFICE FOR DEMOCRATIC INSTITUTIONS AND HUMAN RIGHTS: 
                     ACCOMPLISHMENTS AND CHALLENGES

=======================================================================

                                HEARING

                               before the

                       COMMISSION ON SECURITY AND
                         COOPERATION IN EUROPE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 21, 2013

                               __________

 Printed for the use of the Commission on Security and Cooperation in 
                                 Europe
                                 
                                 
                                 
                                 
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                 
                                 
                                 
                                 
                                 
                                 


                     Available via http://www.csce.gov
                   
                   
                   
                                ______________
                                
                                
                                
                                
                                
                         U.S. GOVERNMENT PUBLISHING OFFICE
   95-503                         WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                        
                                
                                
                                
                           
                                
                                
                   
                   
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE
            

                    LEGISLATIVE BRANCH COMMISSIONERS

               SENATE

                                                    HOUSE

BENJAMIN CARDIN, Maryland,          CHRISTOPHER SMITH, New Jersey,
  Chairman                            Co-Chairman
SHELDON WHITEHOUSE, Rhode Island    JOSEPH PITTS, Pennsylvania
TOM UDALL, New Mexico               ROBERT ADERHOLT, Alabama
JEANNE SHAHEEN, New Hampshire       PHIL GINGREY, Georgia
RICHARD BLUMENTHAL, Connecticut     MICHAEL BURGESS, Texas
ROGER WICKER, Mississippi           ALCEE HASTINGS, Florida
SAXBY CHAMBLISS, Georgia            LOUISE McINTOSH SLAUGHTER, New 
JOHN BOOZMAN, Arkansas              York
                                    MIKE McINTYRE, North Carolina
                                    STEVE COHEN, Tennessee
                                       
                                 
                                     
 .
     THE OSCE OFFICE FOR DEMOCRATIC INSTITUTIONS AND HUMAN RIGHTS: 
                     ACCOMPLISHMENTS AND CHALLENGES

                              ----------                              

                              May 21, 2013
                             COMMISSIONERS

                                                                   Page
Hon. Benjamin Cardin, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1

                               WITNESSES

Ambassador Janez Lenarcic, Office of Democratic Institutions and 
  Human Rights Director, Organization for Security and Co-
  operation in Europe............................................     3

                               APPENDICES
                               
                               
                          
                               


     THE OSCE OFFICE FOR DEMOCRATIC INSTITUTIONS AND HUMAN RIGHTS: 
                     ACCOMPLISHMENTS AND CHALLENGES

                              ----------                              


                              MAY 21, 2013

          Commission on Security and Cooperation in Europe,
                                                    Washington, DC.
    The hearing was held from 2:29 p.m. to 3:27 p.m. EST in the 
Capitol Visitor Center Senate Room 210-212, Washington, D.C., 
Senator Benjamin Cardin, Chairman of the Commission on Security 
and Cooperation in Europe, presiding.
    Commissioners present: Hon. Benjamin Cardin, Chairman, 
Commission on Security and Cooperation in Europe.
    Witnesses present: Ambassador Janez Lenarcic, Office of 
Democratic Institutions and Human Rights Director, Organization 
for Security and Co-operation in Europe.

  HON. BENJAMIN CARDIN, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cardin. Well, good afternoon, and let me welcome you 
all to this hearing of the Helsinki Commission, in which we're 
very honored to have Ambassador Lenarcic here, the director of 
the Office for Democratic Institutions and Human Rights in the 
OSCE. Ambassador Lenarcic is a--is a familiar face and a person 
who we have worked with for a long time and it's a pleasure to 
have him here. It underscores the importance of the work that 
you do in the Helsinki Commission and the priorities that we 
place on the human dimension.
    Since the Helsinki Final Act in 1975, human rights have 
formed an inseparable and core part of the OSCE's comprehensive 
concept of security. Agreement was reached back in 1990 to 
create specialized institutions to assist the participating 
states in implementing their human dimension commitments. And 
based on U.S. proposal, the then Office of Free Elections was 
established in Warsaw. It later was expanded to encompass human 
rights under the title it is now known by as the Office of 
Democratic Institutions and Human Rights, or better known as 
ODIHR.
    In enhancing the role of ODIHR, the 1992 Helsinki Summit 
declared that the participating states express their strong 
determination to ensure full respect for human rights and 
fundamental freedom, to abide by the rule of law, to promote 
the principles of democracy and, in this regard to build, 
strengthen and protect democratic institutions as well as to 
promote tolerance throughout the society.
    I think the international community is well aware that the 
U.S. Helsinki Commission has made human rights, the human 
dimension and the work of ODIHR our top priority. We're proud 
of the role that we've had in advancing many of the most 
important human rights issues--from trafficking, where we now I 
think have brought about the sharing of best practices to stop 
this modern form of slavery; to the tolerance agenda, where 
we're very proud of the role that we've had in improving the 
capacity of OSCE through special representatives and sharing, 
again, best practices among the participating states; to 
transparency initiatives that we're very proud of our 
initiative in those areas that have put a spotlight on anti-
corruption strategies in countries to advance that basic right 
of good governance. And certainly we've made progress, but, 
nonetheless, we still face significant issues.
    While some OSCE countries have successfully transitioned to 
democracy, others appear to be moving backwards. Several 
participating states have yet to hold free and fair elections. 
Freedom of the media is threatened in many OSCE states, where 
journalists are harassed, attacked and even killed for their 
work. And the Internet and other digital media are restricted.
    Nongovernmental organizations and human rights defenders 
face reprisal for their work. Extremism laws are used to go 
after opposition activists and nontraditional religious groups. 
Anti-Semitism, racism and discrimination continue to result in 
hate crimes. Roma, Europe's largest ethnic minority, continue 
to face discrimination in education, employment, and housing. I 
support ODIHR's work to address these issues.
    The OSCE itself also faces challenges. This year marks the 
10th anniversary of the Roma Action Plan and the OSCE's first 
conference on racism, xenophobia and discrimination. 2014 will 
mark not only the 10th anniversary of the OSCE Tolerance Unit 
but also the adoption of the seminal Berlin declaration on 
combating anti-Semitism. And I was very proud to be part of 
that U.S. delegation to the Berlin meetings that resulted in 
that declaration.
    However, even as we commemorate and approach these 
anniversaries, OSCE's efforts to address these issues face 
political problems. For two years in a row, Russia has blocked 
all human-dimension decisions by the OSCE Ministerial Council, 
including a proposal at the Dublin Ministerial last December 
which would have strengthened the OSCE tolerance efforts. 
Agreement to hold a high-level tolerance conference taking 
place today in Albania came only at the last minute and 
significantly diminishing its impact.
    I'd like to take this opportunity to applaud ODIHR's 2011 
Roundtable, 2012's hate crimes training and other outreach 
efforts to the seven (million) to 10 million people of African 
descent in Europe, who have been especially targeted by hate 
groups in addition to challenges experienced by North American 
African-descent population. African-descent civil society is 
still in great need of additional capacity-building, and I hope 
ODIHR can build on these efforts.
    I would also like to see ODIHR strengthen its work on 
gender issues and assisting participating states with promoting 
equality of opportunity between women and men. In this regard, 
I would like to acknowledge the presence in our audience today 
of the OSCE chair-in-office, Special Representative on Gender 
Issues June Zeitlin, and thank her for her work in this regard.
    Ambassador Lenarcic, I understand you are working with the 
State Department to arrange a visit to the detention facility 
at Guantanamo Bay in preparation for the possible monitoring of 
any illegal proceedings related to it. I myself have visited 
Guantanamo and I support you doing so as well as ODIHR's 
involved in monitoring the situation there. I believe the 
United States policy concerning the remaining detainees should 
be transparent and in accordance with acceptable standards. I 
look forward to your thoughts on how these and other human 
rights efforts can be advanced by the OSCE.
    I first got to know Ambassador Lenarcic when he chaired the 
OSCE Permanent Council in Vienna during Slovenia's 2005 
chairmanship in office. After his Vienna assignment, he was 
appointed Slovenia's state secretary for European affairs in 
2006. He also served as a diplomatic adviser in the Office of 
the Prime Minister and in the permanent mission to the United 
Nations in New York. Ambassador Lenarcic was appointed director 
of the Office of Democratic Institutions and Human Rights in 
July of 2008.
    Welcome. We look forward to your testimony.

 AMBASSADOR JANEZ LENARCIC, OFFICE OF DEMOCRATIC INSTITUTIONS 
  AND HUMAN RIGHTS DIRECTOR, ORGANIZATION FOR SECURITY AND CO-
                      OPERATION IN EUROPE

    Mr. Lenarcic. Thank you very much, Mr. Chairman.
    Ladies and gentlemen, I would like first to express my 
gratitude to you for this opportunity. I'm very pleased and 
honored to be able, again, to testify before this commission. 
I'm very much grateful for the consistent support that this 
commission and the United States have extended to our office 
and its activities.
    I think that this meeting today is also an opportunity to 
look at the five years that have passed since I appeared here 
for the first time back in September 2008, as well as to look 
ahead--but not too far ahead because, as you know, I'm entering 
my last year in this office.
    Before I continue, in the interest of saving time for 
discussion, I would request, or suggest that my prepared 
statement be put into the record.
    Mr. Cardin. Without objection, your entire statement will 
be put in the record.
    Mr. Lenarcic. Thank you, sir. And I would limit then my 
introduction to a few highlights.
    First, if we look back to all these years, there were many 
significant developments and challenges throughout the OSCE 
area and around it. And these developments, unfortunately, have 
led recently to what appears to be a mismatch between the 
decreasing ability of decision-making bodies of the OSCE to 
adopt timely and substantive and relevant decisions. And you 
mentioned that, Mr. Chairman, in your introduction. And this 
is, on the other hand--on the other hand, we have other parts 
of the organization, the same organizations, that are 
responsible for implementing those decisions and are able more 
or less to do their work. I'm talking about secretariat 
institutions, field offices and others.
    One of the major factors that impacted the OSCE in these 
years was undoubtedly the financial crisis that hit just after 
I appeared before you five years ago. And this, obviously, has 
resulted in restriction of resources, of available resources, 
but not only that. Some of the participating states have had to 
economize and they did so by prioritizing immediate 
firefighting, I would call it, over long-term fire prevention 
and protection. And that happened also within the OSCE human 
dimension. The available resources have shrunk while the 
challenges have increased.
    Others, meanwhile, whether affected by that same economic 
crisis or not, have continued to prioritize stability over 
human rights standards and system continuity over systemic 
reforms. I think we have seen a situation developed in OSCE, 
where some of the willing have become less able, while some of 
the increasingly able have become less willing. And the result 
is that we have now individual appetites for questioning 
existing commitments sometimes stronger than the common desire 
to further strengthen them. And this is also visible in what 
you noted in your introduction, Mr. Chairman: the absence of 
meaningful human dimension decisions taken by the ministerial 
council over the last couple of years.
    But there is also the other part of the OSCE: overseeing of 
the institution's field operations and secretariat, and 
including, of course, of the parliamentary assembly, which are 
trying to assist and support participating states. And a lot 
has been over two and more decades in turning commitments into 
practice and offering best practices that--for the 
participating states and other regions and organizations to 
learn from them.
    This part of the OSCE is the one that helped develop 
democratic institutions in the war-torn region of the Balkans. 
This is the OSCE that has pioneered the development of 
standards, methodologies and expertise in many fields. And this 
is also the part of the OSCE whose accomplishments are little 
known, simply because effective prevention of conflicts draws 
less attention than the conflicts themselves.
    In short, I do see, after all these years, OSCE as a--to 
use the language of enterprise--a profitable and well-
functioning enterprise based on sound principles but with an 
increasingly paralyzed boardroom. The main problem is not so 
much that the discussions in that board room, which is the 
permanent council, on meeting protocols and possibly new 
products that these discussions require increasing amounts of 
both energy and time. The main problem is that this paralysis 
in our boardroom, combined with the ongoing budgetary squeeze, 
result in slowing down our assembly line, the assembly line 
which produced well-tested and quality OSCE products.
    Let me now go through some of these products. And I will 
try to focus only on a few of the highlights here. First, human 
rights defenders. Our office continues to work closely with 
civil society and nongovernmental organizations in order to 
ensure that their voice is heard in the OSCE and that they can 
play their fundamental role in human rights protection. We try 
to ensure that they can operate in an enabling environment, 
free from reprisals, harassment, and intimidation.
    Unfortunately, in many countries, we have witnessed in the 
past few years that there is deterioration of the situation of 
human rights defenders. We have seen disturbing developments 
where the environment for human rights defenders to operate 
freely has become much more restricted. That's why the meeting 
of the civil society organizations on the margins of the Dublin 
Ministerial last December made a strong call by producing a 
Declaration on Human Rights Defenders. We will heed that call. 
And we launched a project aimed at producing recommendations to 
participating states how to protect human rights defenders, 
which is an old obligation of the OSCE-participating states 
codified, if I may say so, already in Budapest in 1994. We will 
mark the 20th anniversary of the Budapest document next year. 
And, in our view, this is a good opportunity to recall this 
obligation--common obligation of OSCE participating states to 
protect human rights defenders.
    In the area of rule of law, I would like to highlight our 
trial monitoring activities. Trial monitoring can be an 
important way to promote transparency in the administration of 
justice and full adherence to fair trial standards. Since 2008, 
we have conducted large trial monitoring projects in Armenia 
after 2008 presidential elections, in Belarus in the aftermath 
of the 2010 elections, and currently in Georgia, where we 
monitor criminal proceedings against former senior officials of 
the previous government; proceedings that were initiated after 
the 2012 parliamentary elections there.
    Of course, I wish to thank the United States for its 
continuous financial and political support to these projects, 
which would not be possible if we had to rely solely on our 
regular budgets.
    You mentioned, Mr. Chairman, the anti-trafficking, where 
OSCE has pioneered standards and commitments. I could tell you 
that over all these years, in close cooperation with the 
special coordinator of OSCE on trafficking on human beings, 
Mrs. Giammarinaro, we have been developing and promoting a 
human rights-based approach in combating trafficking.
    ODIHR was one of the first international bodies to raise 
the issue of trafficking for not only sexual, but also labor 
exploitation by advocating for a diversified approach to the 
identification of victims and assistance to trafficked persons. 
We also specialized in establishment of compensation funds and 
we advocated the access of victims to compensation for the 
losses that they have suffered.
    Gender--and I share your pleasure with seeing Ms. Zeitlin 
here--gender has remained one of our most important activities 
over all these years. Our office has attempted to mainstream 
the gender aspects into all--all--of its programmatic 
activities.
    Let me just illustrate this by our election related 
activities, where all observation and assessment activities 
take into account the gender aspect of elections. And we have 
also been active in promoting women's political participation 
throughout the OSCE and beyond, notably in the Mediterranean 
partner countries. We have developed a plethora of tools in 
support to OSCE-participating states and the field operations, 
for instance, the base line study gender equality in elected 
office six-step action plan. So it implies that if there is 
political will, six steps would do and improve the 
participation of women in political and public life.
    Freedom of peaceful assembly and association is one of 
those freedoms that have come under increasing strain in the 
OSCE since 2008. In some participating states, the space for 
free expression of these fundamental rights is shrinking as a 
result of restrictive legislation and practices, including 
increased scrutiny and monitoring of civil society activity 
through, for instance, deployment of tax, labor and other 
inspections.
    Another troubling development is the tendency to brand 
legitimate exercises of freedom of peaceful assembly and 
association as the activity done by so-called extremists or 
foreign agents. We are launching now a joint activity with the 
Council of Europe's Venice Commission to develop guidelines on 
freedom of association. These guidelines will be designed to 
assist the participating states in implementing their important 
commitments in this area and will complement the existing joint 
guidelines on freedom of peaceful assembly that we produced 
recently also together with the Venice Commission.
    Mr. Chairman, you mentioned Roma and Sinti issues. Indeed, 
the OSCE action plan on improvement of the situation of Roma 
and Sinti, which was adopted in 2003, was a landmark document. 
It was a pioneering document, but it remains not implemented. 
This was the case in 2008 when I already reported to you about 
our preparation of status report after five years since the 
adoption of the Roma and Sinti action plan.
    We are now preparing a second status report at the 10th 
anniversary of the adoption of the action plan. I can already 
tell you that preliminary reading of the background data that 
we have collected for this second status report indicates that 
Roma and Sinti overall remain discriminated against, remain 
vulnerable, and that sizeable communities live--continue to 
live in abject poverty and on the margins of societies. And 
that all this is happening also in countries that otherwise 
(are known ?) as well-developed ones.
    On hate crimes, you are aware of our annual report, which 
clearly shows that more needs to be done to develop the 
capacity to effectively address such crimes. In many instances, 
law enforcement agencies and officers lack the required 
knowledge and skills to recognize hate crimes as such and also 
to offer effective and adequate victim protection.
    And for these reasons, victims are often reluctant to 
report hate crimes and that results in underreporting of this 
phenomena. We are developing a number of tools and activities 
to assist participating states to improve their performance in 
this area, notably by our program on training against hate 
crimes for law enforcement. This is a success story I can say. 
To date, this--through this program, we have trained more than 
70,000 police officers in Bulgaria, Croatia, Poland, and with 
the support of the OSCE mission in Kosovo, also in Pristina. We 
are planning to continue this work this year and next in 
Albania, Italy, where I will sign the memorandum next year, 
Montenegro and Ukraine.
    Combating hate crimes is only one of our ongoing activities 
in the field of promoting tolerance and nondiscrimination, 
which are much wider. We have a variety of tools and activities 
in this area, in the areas of combating anti-Semitism, 
combating discrimination against Muslims as well as of 
Christians and members of other religions. We work closely 
together with the special representative--personal 
representatives of the chairperson in office, including Andy 
Baker, in this field. Next month, for instance, we will help 
organize jointly a conference in Berlin on the security of 
Jewish communities.
    With regard to freedom of religion or belief, you probably 
are aware of the fact that we have overhauled the institutional 
structure at our disposal; there is a new panel of experts on 
freedom of religion or belief that has been established 
recently. It has 12 notable personalities serving in it and we 
believe that it will allow us to improve our capacity to assist 
participating states in meeting their obligations in the area 
of freedom of religion or belief so that everyone will be able 
to exercise this freedom in whatever way they wish to do it, 
when and where they wish to do it.
    It is now more than two years since the events unfolded 
that became commonly referred to as the Arab Spring. I can 
report to you that our office has been actively promoting 
closer cooperation between the OSCE and its Mediterranean 
partners of cooperation. We have come particularly far with our 
cooperation and support to the efforts by Tunisia in many 
fields, but we also are pursuing expansion of this cooperation 
with others.
    Mr. Chairman, of course, we have to--I have to also mention 
one of the major activities of our office, which is election 
observation. We have deployed many election observation 
missions over these years. We have cooperated in most cases 
well with the parliamentary assembly of the OSCE and other 
parliamentary partners.
    I would single out the observation missions in the Russian 
Federation in December 2011 and March 2012. Why? Because you 
will recall that five years earlier, it was not possible for 
our office to monitor elections there due to the restrictions 
imposed at that time. So there was a challenge how to overcome 
that legacy. And I think that challenge was met. It was not 
easy. It was not easy to overcome the mistrust and suspicion, 
but I think we were able to do that and we were able to produce 
together with--on both cases, with OSCE Parliamentary Assembly 
and other parliamentary partners two reports--two assessments 
of those elections. And I am confident about the value of those 
reports. There are many other election observation activities 
that are ongoing and I do hope that there will be a good 
cooperation between our office and parliamentary assembly, 
maybe a word about it a little later.
    Before I go there, just one more thing. Election 
observation is not an end in itself. We see it as only a stage 
in the longer process, a process which should include the 
follow-up to recommendations that are usually contained in our 
final reports. I'm pleased to note that that is a growing 
number of participating states that do engaged in earnest in 
follow-up activities. And this group includes the United 
States. As we speak, this week, the follow-up visit is underway 
in order to present and discuss our final report from the last 
November elections and to discuss its recommendations. I'm 
particularly pleased the U.S. is engaging in this activity in 
earnest because I think it's important for the OSCE that the 
U.S. is able to show an example to others also in this area.
    A word about the cooperation with the OSCE Parliamentary 
Assembly. I would like to emphasize here before you that we are 
fully committed to cooperation with our parliamentary assembly 
on the basis of the '97 cooperation agreement as endorsed by 
the ministerial council decision. That ministerial council 
decision talks about election observation as a common endeavor 
of our two institutions, ODIHR and OSCE Parliamentary Assembly, 
and other parliamentary bodies as appropriate. And it calls for 
partnership. And we are committed to this.
    I think that the previous president of the parliamentary 
assembly, Petros Efthymiou, put it very well when he said that 
OSCE Parliamentary Assembly and ODIHR have complementary roles 
to play. I fully agree with it and also have to know that 
during his presidency of parliamentary assembly, our 
cooperation was generally good.
    I would like to move towards conclusions, sir, with 
importance of the United States leadership in the promotion of 
human rights, freedoms, rule of law and democracy, importance 
which was clearly demonstrated over the past century and also 
in the framework of the OSCE.
    But as for any leadership, it is most effective when it is 
done by example. In January 2012, on the 10th anniversary of 
the transfer of the first detainees to the U.S. naval base in 
Guantanamo Bay, we--it was with regret and dismay that we had 
to issue a press release stressing that universal human rights 
standards require that also detention of terrorist suspects 
should be accompanied by concrete charges and that the persons 
detained under these charges shall be immediately informed of 
them and brought before a competent judicial authority. We also 
called for a swift closure of Guantanamo of--we called for 
prosecution of the remaining detainees in accordance with 
international fair trial standards or for their release.
    And, most recently, President Obama echoed what 
international human rights and democracy activists have been 
saying for years--that Guantanamo, I quote, ``hurts the United 
States in terms of its international standing,'' end of quote, 
and that the facility, quote, ``likely created more terrorists 
around the world than it ever detained,'' end of quote.
    The United States has traditionally aspired to play a role 
as both a leader and example for others. If it wishes to do so, 
it must move, I believe, without delay towards closing of the 
Guantanamo detention center.
    In conclusion, Mr. Chairman, I would like to thank you once 
more for your kind invitation. I would like to thank you and 
the commission and the United States for its staunch, 
consistent support for our activities. I very much look forward 
to our discussion and also to our continued cooperation for the 
remainder of my term in this office. Thank you.
    Mr. Cardin. Mr. Ambassador, thank you for that very 
comprehensive overview of the work under your portfolio. It 
certainly is a very ambitious agenda from the point of view of 
the challenges that we have within the OSCE region.
    I also appreciate you started with the--some of the 
procedural challenges that we have. I think the OSCE has been 
one of the most successful consensus organizations in modern 
history, but a consensus organization requires the cooperation 
of all the participating states with a common objective, and a 
willingness to sit down and listen as well as to voice 
concerns, and to recognize that there are principles that we 
all need to improve upon. And by the work of the OSCE, each of 
our states can become stronger in all three baskets. And I 
think that's the hallmark here.
    I also thank you for bringing up the election monitoring. 
We think that's one of the basic responsibilities that we have. 
And I think we all are somewhat feeling better today because of 
renewed commitments between the parliamentary assembly and 
ODIHR to work out its issues. And, as I understand it, the most 
recent observation teams have worked and it looks like we're 
back on track on the observation issues.
    I am concerned about some suggestions being made by 
participating states that they want more of the election 
monitoring decision-making done by consensus rather than done 
in a professional manner between ODIHR, and the chair in 
office, and the parliamentary assembly.
    Can you just share with us--you know, we want to make 
progress on the process issues. We certainly don't want to 
backtrack. Can you just fill us in as to whether we're going to 
be able to move forward in a similar manner, as we have in the 
past, in election monitoring?
    Mr. Lenarcic. Now? Thank you, sir. I think your concern is 
very well justified. I think that the attempts to place a 
greater share of the ODIHR's or any other OSCE institution's 
activities under the consensus-based decision-making of the 
permanent council can only result in hampering the activities 
of the institutions. I think that such attempts must be 
resisted.
    It was for a reason that OSCE decided to establish distinct 
institutions and give them their mandates. It is necessary to 
allow these institutions--and I think I'm talking about all 
three of them, all three of these institutions established by 
the ministerial council, to be able to deliver on their mandate 
without undo--without undo hindrance.
    There are attempts, as you said, that important parts of 
ODIHR's activities, including in election observation, would be 
placed under this decision-making authority of the permanent 
council. For instance, that--let's say, preliminary statement 
should first be discussed and agreed in the permanent council. 
I think that such arrangement would inevitably result in the 
absence of any meaningful assessments of election processes. 
Clearly, if every state has a veto, they would prevent anything 
that would reflect negatively. It would, in other words, spell 
the end of professional, independent and impartial election 
observation. It would mean the end of election observation as a 
professional activity which is devoid of the politics between--
playing out between the participating states.
    Mr. Cardin. I agree with you completely and that's a matter 
that I can tell you this commission will be watching very 
closely. I've had discussions with our mission in Vienna on 
this issue. And we will continue to push very hard to continue 
the professional manner in which the election activities have 
been taking place within OSCE.
    You mentioned the human rights defenders and protecting 
human rights defenders, which is something that is a very high 
priority to us. I'd like to put into that a recent concern 
that's been brought to our attention about NGOs and NGOs' 
participation in OSCE activities and proposals made by Belarus 
and Russia that would cause the vetting process to deny active 
participation by many of the NGO organizations.
    Can you just bring us up to date on this issue as to 
whether we are--how well NGOs are able to operate within the 
OSCE framework and within OSCE countries? And what does the 
trend line here look like?
    Mr. Lenarcic. Thank you, sir. I think that the--one of the 
unique features and advantages of the OSCE is precisely the 
format of its human dimension events. I think the OSCE is the 
only international organization which holds its human 
dimension, human rights events in the format which is 
completely open to nongovernmental organizations, to civil 
society representatives; but not only open, it places them. It 
gives them place at the table and they can take the floor and 
confront participating states with their views and suggestion.
    Clearly, this can often be uncomfortable for some 
participating states. It's never comfortable when government 
policies are criticized, especially in front of others, but 
that's what actually OSCE is all about. OSCE is about peer 
pressure. OSCE is about peer review. And the civil society 
organizations and nongovernmental organizations have a crucial 
role to play. And this role was most recently reaffirmed or 
acknowledged again at the highest level at the Astana summit, 
where the leaders of OSCE participating states acknowledge the 
role of civil society organizations in helping them meet their 
OSCE commitments.
    So I think it is of utmost importance to preserve the 
access of nongovernmental organizations to OSCE conferences, to 
human dimension meetings. It is, therefore, of utmost 
importance to not allow attempts to exclude this or that civil 
society representative upon request of an individual state. 
There are--there is one exception, according to OSCE rules. It 
is defined in the Helsinki document from 1992, which stipulates 
that all NGOs will be able to participate in OSCE human 
dimension events, except for those organizations and 
individuals that advocate violence or justify terrorism. So 
this is the only exception. I think that this arrangement is 
adequate.
    There are ongoing complaints--ongoing complaints almost 
every year about certain individual organizations appearing, 
appearing before--appearing at the human dimension event. But 
those complaints usually--I would say, are an issue between two 
or more participating states, because state A claims this 
person should not be seated at the OSCE conference table 
because according to a court decision in our country, that 
person was convicted of terrorist activities. But that same 
person lives and works in another participating state which 
obviously disagrees with that court judgment.
    So this is an issue that in my view should be solved 
between the countries concerned and not--not--at the conference 
itself. Certainly, we at ODIHR do not see our role--our role as 
policing the human dimension events. We see our role as opening 
the door to all those who wish to attend and participate. And 
we don't see our role as identifying those who are not supposed 
to attend and throw them out.
    Mr. Cardin. I would just underscore the point that you 
made. I understand the exception that's there on participation, 
but I would argue that's not for an individual state's 
determination, even if the event is in that individual state. 
It has got to be a broader acceptance that the organization is 
disqualified rather than it being suspicious that an NGO is 
being denied participation because the host country doesn't 
particularly like what they stand for rather than being 
disqualified for the reasons that you mentioned. So I think we 
have to be pretty aggressive in protecting the participation, 
which is what we believe in as an organization.
    I want to move to the issue that you mentioned, which I 
think is very, very important: trial monitoring. In more and 
more countries, we're finding that countries that have 
transitioned into free and fair elections and to democracy, 
after an election is over are using every tool at their 
disposal to crush their opposition, their new opposition, 
including using the trial process in imprisoning the 
opposition, denying them full rights to participate in the 
government in order to try to maintain the power of their new--
their new election. The election may have been free and fair, 
but as a result of the elections they're taking steps that are 
really questionable as to the rights of opposition.
    You've mentioned a couple of points in your opening 
comments about monitoring trials that could very well be 
political in nature. And you also mentioned the opportunity, 
freedom of expression, and the ability to effectively oppose 
the government in power. It seems to me that we have some 
countries that have--that we thought were pretty far along the 
way that require some attention today that may resist that. How 
can we effectively put a spotlight on those concerns and try to 
improve the conduct in these countries?
    Mr. Lenarcic. Thank you. There are two firm commitments 
made by OSCE-participating states to invite international 
observers. One widely known is to invite international monitors 
for elections. Another one, which is less known, is commitment 
to invite international observers to monitor trials. It is as 
unequivocal as the first one. And we tried to use that. We 
tried to use it in--on occasions, when there are--when there 
are concerns with regard to the motivation for the trials, with 
regard to the fairness of the trials, or with regard to the--to 
the circumstances that result in the--in the trials.
    In all the three cases that I mentioned, Armenia, 2008; 
Belarus, 2010; and, most recently, Georgia, we use these 
arguments--this unequivocal commitment combined with the 
concerns that were due to circumstances in order to advocate 
this kind of exercise.
    Mr. Cardin. Let me interrupt you just for one moment. I was 
aware that we had the right to monitor trials. It seems to me 
we're better off if we never have a trial in some of these 
cases and that is there any way that we can work with countries 
to say, don't just try to find a criminal statute or invent a 
criminal statute so the person you beat ends up in jail, but to 
really look at the type of country you want to live in and 
understand that elections have consequences. You won, but 
you're--you won because of a free and fair election. It's your 
responsibility to maintain that. Understand that once the 
indictments are there, you have the opportunity to monitor how 
the trial itself takes place. It seems to me we want to prevent 
the intimidation factor to start off with.
    Mr. Lenarcic. That's a strong point that you made, sir, but 
I don't think that we are in a position to prevent trials if 
prosecutors, you know, go ahead and trials start, but we can 
monitor them. And we can--and the purpose of monitoring is to 
ascertain to what extent the defendant was afforded fair trial 
guarantees. And those fair trial guarantees are quite 
unequivocal and are contained in a number of OSCE commitments. 
So there is a solid basis for our work in monitoring the 
trials.
    And there is also key added value in such monitoring. Every 
monitoring exercise results in a comprehensive report, which, 
if it identifies significant shortcomings, it also contains 
specific, concrete recommendations for the country to undertake 
in order--what measures to take in order to improve its 
judiciary, the functioning of a judiciary, its independence, as 
well as to strengthen the fair trial guarantees.
    I can tell you that the Armenian authorities worked with us 
seriously and engaged with us intensively on the basis of our 
report from the trial monitoring in that country. We're still 
waiting for Belarus to work with us on recommendations from our 
trial monitoring report in their case. I am optimistic with 
regard to the readiness of Georgia and its authorities to work 
with us on recommendations that will be part of our final 
report when we issue it.
    Mr. Cardin. Let me move on I guess beyond than just 
monitoring. We had the chair in office here not too long ago 
when we brought up the Ukraine situation, where the former 
leader was--is now in prison, and how the European institution 
has found that that was a political action. Do you coordinate 
some of the work that you do with the appropriate institutions 
within Europe that are monitoring some of these activities?
    Mr. Lenarcic. In the case that you mentioned, the case of 
former Ukraine prime minister is the European Court of Human 
Rights that has been seized with the matter and we--of course, 
that court is completely independent and autonomous. We do, on 
the other hand, cooperate closely with another institution of 
the Council of Europe, the so-called Venice Commission, on a 
number of issues related to human rights, rule of law, 
independence of judiciary. We produce joint legal opinions 
about relevant pieces of legislation so there is good 
cooperation with the Council of Europe.
    Mr. Cardin. Let me--I don't want your comments on 
Guantanamo Bay to go without a response. And my response is 
pretty brief. I agree with you, everything you said, without 
equivocation.
    I would add one additional point, and that is--in every one 
of our country--every one of our states, we're struggling with 
budget problems. And the cost of Guantanamo Bay is 
astronomical. When you look at the comparable cost of bringing 
the detainees to trial and housing them in a more mainstream 
penal facility, the cost would be a fraction of what it's 
costing the U.S. taxpayers today in Guantanamo Bay.
    Now, that's not the reason to close Guantanamo Bay. That's 
not the reason to do everything you just said, but it's another 
factor that I think needs to be understood. So I hope that you 
will be aggressive in this and I can assure that there are 
members of Congress that will be working on this issue with you 
and members of our commission.
    I want to get your thoughts on how we go to the next level. 
It's been a decade since the tolerance agenda really was in 
full stride. You mentioned the document for the Roma 
population, and what was done, and tremendous commitments made. 
And I agree with you, not enough progress has been made. I 
think we've made significant progress on tolerance and very 
proud of what we've been able to accomplish in sharing of best 
practices.
    On gender issues, there are still significant problems in 
our region. We've got to get beyond just the ability to run for 
office, but also deal with the family issues and have to deal 
with the economic issues on gender.
    What strategies would you recommend that we employ, those 
of us who are interested in keeping the tolerance agendas and 
the equity agendas aggressive, to take it to the next level, 
recognizing it's now been a decade that we've followed this 
strategy?
    Mr. Lenarcic. From what we have experienced, the areas 
where things could definitely be lifted to a higher level are 
at least two.
    One is our training programs, like the one that I 
mentioned, training against hate crimes for law enforcement. 
This is important because if hate crimes are not recognized as 
such, then nobody sees it as a problem from the perspective of 
tolerance and nondiscrimination. And hate crimes can be 
described as the extreme form--extreme manifestation of 
intolerance and discrimination. In that area, what really would 
be needed would be better collection of data by all 
participating states. This is a perpetual problem that we are 
encountering when we collect information that serves as a basis 
for our annual report.
    We see that some states don't even collect data. Some 
collect only part of the data necessary. This data collection 
and statistics, these are important things because you don't 
have that, you don't have the understanding of the dimension of 
the problem. So this is one thing where we are trying to foster 
greater efforts by the participating states to systematically 
collect data, to analyze data, to convey that data to us so 
that we can--we can get the picture of what the dimensions of 
the problems really are.
    If somebody asked me today is the--are the incidents of 
hate crimes on the rise or not, I couldn't give you an answer. 
If you look at our annual report, you will see some 
participating states with a high number of hate crime 
incidents. But that is--does it mean that those crimes are more 
common in that country? Not necessarily. More likely it is due 
to the fact that that country is collecting its data more 
successfully and systematically.
    So there are--these efforts should be upgraded, but on a 
strategic level I think that tolerance and nondiscrimination 
issues, including issues connected to with Roma, would need to 
be--would need to continue to be kept on the agenda. Sometimes, 
one has the--one has the impression that there is no more 
attention paid to these issues. And this comes at a 
particularly unfortunate time. It is obvious that the current 
difficulties that many countries are dealing with due to 
economic and financial situation the result--do result in 
scapegoating members of minority, migrants, Roma and others. So 
we do see the increase in that context of the manifestations of 
discrimination and intolerance. So we should keep this item 
very high. And also this conference that is taking place in 
Tirana this week is I think a welcome step in this direction.
    Mr. Cardin. I agree. I think information is critically 
important. Statistics are important. I think you will find that 
there are states that are doing this the right way. The United 
States, I think our statistical information on hate crimes is 
pretty sophisticated. And it can be very informative as to 
where we need to put our priorities.
    I think there are other participating states that have 
equally strong statistical information. Some states don't. And 
that's where best practices can help and that's where I think 
the special representatives can help in trying to promote the 
practices in states, at a minimum, to get the information so we 
can evaluate.
    I can assure you the commission wants to work with you in 
how we can strategize to continue to keep a focus on these 
areas. The plight of the Roma is a high priority of our 
commission and it will remain a high priority. Dealing with the 
problems of anti-Semitism, anti-Muslim activities and anti-
Christian activities are going to be front and center for this 
commission. And gender equality issues are going to be matters 
that we're going to spend a lot of time to make sure that we'll 
move forward on. So these are issues that we have promoted in 
the past, special conferences. We have promoted agendas at the 
ministerial meetings and strategies.
    What I would urge is that we come together and try to 
figure out the right strategy to advance these issues moving 
forward, recognizing the procedural hurdles that have been more 
difficult in recent years and also recognizing the competing 
areas. You laid out a very comprehensive report and where there 
are so many different areas. And the resources--and I don't 
mean just financial resources, just the resources have to be 
used in a most judicious way in order to set priorities so we 
can make progress in each of these areas.
    I can assure you that this commission will strongly support 
your work. And we look forward to your recommendations and 
advice as to how not only our commission, but also the United 
States Congress and the administration can weigh in to help 
advance the objectives of the human dimension within OSCE. We 
value very much your recommendations and we want to make sure 
that you have the tools in order to carry out your 
responsibilities. And we will continue to fight from a 
procedural point of view to make sure that OSCE can continue to 
be a functioning institution to advance the human dimension.
    Thank you for your public service. Thank you for coming to 
the United States. We very much appreciate that.
    Mr. Lenarcic. Thank you.
    Mr. Cardin. The commission will stand adjourned.
                            A P P E N D I X

=======================================================================

                          Prepared Statements

                              ----------                              


  Prepared Statement of Hon. Benjamin Cardin, Chairman, Commission on 
                  Security and Cooperation in Europe 

    I would like to welcome Ambassador Lenarcic back here to the 
Commission today and thank him for this opportunity to discuss the 
ongoing work of the OSCE Office for Democratic Institutions and Human 
Rights.
    Since the Helsinki Final Act in 1975, human rights have formed an 
inseparable and core part of the OSCE's comprehensive concept of 
security. Agreement was reached back in 1990 to create specialized 
institutions to assist the participating States in implementing their 
human dimension commitments, and based on a U.S. proposal, the then 
Office of Free Elections was established in Warsaw. It later was 
expanded to encompass human rights under the title it is known by 
today, the Office for Democratic Institutions and Human Rights (ODIHR). 
In enhancing the role of the ODIHR, the 1992 Helsinki Summit declared 
that ``the participating States express their strong determination to 
ensure full respect for human rights and fundamental freedoms, to abide 
by the rule of law, to promote the principles of democracy and, in this 
regard, to build, strengthen and protect democratic institutions, as 
well as to promote tolerance throughout society.''
    I think the international community is well aware that the U.S. 
Helsinki Commission has made human rights, the human dimension, and the 
work of ODIHR our top priority. We are proud of the role that we have 
had in advancing many of the most important human rights issues: from 
trafficking, where we share best practices to stop this modern form of 
slavery; to the tolerance agenda, where we are very proud of the role 
that we have had in improving the capacity of the OSCE through the work 
of the OSCE Special Representatives and sharing best practices; to 
transparency initiatives that have put a spotlight on anti-corruption 
strategies to advance good governance. We have made progress, but 
nonetheless, we still face significant issues.
    While some OSCE countries have successfully transitioned to 
democracy, others appear to be moving backwards. Several participating 
States have yet to hold free and fair elections. Freedom of the media 
is threatened in many OSCE States, where journalists are harassed, 
attacked, or even killed for their work, and the Internet and other 
digital media are restricted. Non-governmental organizations and human 
rights defenders face reprisals for their work. Extremism laws are used 
to go after opposition activists or non-traditional religious groups. 
Anti-Semitism, racism, and discrimination continue to result in hate 
crimes. Roma, Europe's largest ethnic minority, continue to face 
pernicious discrimination in education, employment, and housing. I 
support ODIHR's work to address these issues.
    The OSCE itself also faces challenges. This year marks the tenth 
anniversary of the Roma Action Plan and the OSCE's first Conference on 
Racism, Xenophobia, and Discrimination. 2014 will mark not only the 
tenth anniversary of the OSCE's Tolerance Unit, but also the adoption 
of the seminal Berlin Declaration on combating anti-Semitism--where I 
myself was proud to be part of the U.S. Delegation. However, even as we 
commemorate and approach these anniversaries, OSCE efforts to address 
these issues face political problems. For two years in a row, Russia 
has blocked all human dimension decisions by the OSCE Ministerial 
Council, including a proposal at the Dublin Ministerial last December 
which would have strengthened OSCE Tolerance efforts. Agreement to hold 
the High Level Tolerance Conference taking place today in Tirana, 
Albania came only at the last minute and significantly diminishing its 
impact.
    I would like to take this opportunity to applaud ODIHR's 2011 
roundtable, 2012 hate crimes training, and other outreach efforts to 
the 7-10 million people of African descent in Europe who have been 
especially targeted by hate groups, in addition to challenges 
experienced by the North American African descent population. African 
descent civil society is still in great need of additional capacity 
building and I hope that ODIHR can build on these efforts.
    I also would like to see ODIHR strengthen its work on gender issues 
and assisting participating States with promoting equality of 
opportunity between women and men. In this regard, I would like to 
acknowledge the presence in our audience today of the OSCE Chairman-in-
Office Personal Representative on Gender Issues, June Zeitlin, and 
thank her for her work in this regard.
    Ambassador Lenarcic, I understand you are working with the 
Department of State to arrange a visit to the detention facility at 
Guantanamo Bay, in preparation for possible monitoring of any legal 
proceedings related to it. I myself have visited Guantanamo, and I 
support your doing so as well as ODIHR involvement in monitoring the 
situation there. I believe the United States policy concerning the 
remaining detainees should be transparent and in accordance with 
acceptable standards.
    I look forward to your thoughts on how these and other human rights 
efforts can be advanced in the OSCE.
 Prepared Statement of Ambassador Janez Lenarcic, Office of Democratic 
 Institutions and Human Rights Director, Organization for Security and 
                         Co-Operation in Europe

                               __________
    Distinguished Commissioners, Ladies and Gentlemen,
    Allow me first of all to express my great appreciation for the 
honour of the invitation to address you again. I remain grateful for 
the support of this distinguished Commission and of the United States 
to the activities and the mission of my Office. This is, furthermore, a 
welcome opportunity to reflect back on the years that have passed since 
I last testified in 2008, at the very beginning of my tenure as ODIHR 
Director, and the challenges and opportunities ahead as I am entering 
the last year of my term.
    Over these years, we have witnessed significant developments and 
challenges throughout the OSCE area and in our closest neighbourhoods. 
Unfortunately, these developments and challenges may have led to an 
increased mismatch between the decision-making part of the OSCE, and 
those bodies in the rest of the organization responsible for 
implementing those decisions.
    When I last appeared before you, many of our participating States 
were just about to be among the hardest hit by the worst global 
economic crisis in living memory, and some may still have the worst of 
it ahead. Five years of austerity have squeezed available resources, 
and some participating States have had to economize by prioritizing 
immediate fire-fighting over long-term fire prevention and protection, 
so to speak, including within the OSCE's human dimension. Others, 
meanwhile, whether affected by the economic crisis or not, have 
continued to prioritize stability over human rights standards, and 
system continuity over systematic democratic reform.
    For the OSCE one might argue that the past few years have seen a 
development of a situation where some of the willing have become 
increasingly less able, while some of the increasingly able have become 
less willing. The result has been that individual appetites for 
questioning existing commitments sometimes seem stronger than the 
common desire to further strengthen them. The result has also been that 
the increased mistrust and suspicion in internal OSCE relations that I 
spoke of during my previous visit, seems further entrenched on some 
fronts.
    But there is also the other part of the OSCE, and this is the OSCE 
of the institutions, field operations and secretariat, which are 
mandated and tasked to assist and support the participating States. 
This is the OSCE that, over the past two decades, has been instrumental 
in turning commitments into practice, and offer best practices for 
other regions and organizations to learn from. This is the OSCE that 
helped develop democratic institutions in the war-torn region of the 
Balkans, including in the country soon to become the EU's next member-
state. This is the OSCE that has pioneered the development of 
standards, methodologies and expertise in many fields, and has done so 
for a ``bang for the buck'' that few if any can match. This is also the 
OSCE whose many accomplishments are little known simply because 
effective prevention of conflicts draw less attention. Last but not 
least, and for the reasons just mentioned, this is the OSCE for which 
the demand for its services is growing, rather than diminishing.
    I therefore see the OSCE largely as a profitable and well-
functioning enterprise based on sound principles, but with an 
increasingly paralysed boardroom. The main problem is not so much that 
discussions in the boardroom on meeting protocols and possibly new 
products require increasing amounts of both energy and time. The main 
problem, and risk, is that, as collateral damage from this process, 
combined with the ongoing budgetary squeeze, our assembly-line is 
slowed down or even put on halt, limiting the output and value of well-
tested and quality OSCE products requested.
    I would now like to turn to some of these products, consistently 
delivered under the OSCE/ODIHR brand.
    Ladies and Gentlemen,
    Our Office continues to work closely with human rights defenders. 
We provide training opportunities for civil society and include NGOs in 
our activities. This is to ensure that their voice is heard and that 
they can play, as effectively as possible, their fundamental role in 
human rights protection. Most importantly, we remain strongly committed 
in our efforts to ensure that they can operate in an enabling 
environment, free from reprisals, harassment, and intimidation. 
Unfortunately, what we have witnessed in the past few years is that 
much work remains to be done. We have also seen disturbing developments 
that would indicate that the environment for some human rights 
defenders to operate freely has become more, not less, restricted. The 
meeting of civil society organizations on the margins of the Dublin 
Ministerial made a strong call by adopting a Declaration on Human 
Rights Defenders. Our Office is now redoubling its efforts by 
initiating the development of OSCE/ODIHR Recommendations on the 
Protection of Human Rights Defenders. Our aim is to publish this 
document in spring 2014 following a fully inclusive process with human 
rights defenders across the OSCE region. Our hope is that the 
Recommendations will assist OSCE's 57 participating States to fulfil 
their commitment to protect human rights defenders and that they will 
provide a solid basis, for human rights defenders themselves, to 
campaign for their own rights and those of the citizens and communities 
they so bravely defend.
    In our efforts to promote human rights and the rule of law in the 
OSCE region as outlined in the Copenhagen document, our Office has 
developed a methodology for trial monitoring, which is used in our own 
trial monitoring operations and in our training and capacity-building 
of civil society. Trial monitoring can be an important way to promote 
transparency in the administration of justice, and full adherence to 
fair trial standards. Since 2008, ODIHR has monitored trials in Armenia 
following the 2008 presidential elections, in Belarus in the aftermath 
of the 2010 elections and currently in Georgia, where we monitor 
criminal proceedings against former senior officials of the previous 
government, initiated following the 2012 parliamentary elections. The 
ODIHR recommendations from trial monitoring have been widely recognized 
as providing a key added value in support to OSCE participating States 
in their efforts to implement OSCE rule of law commitments. ODIHR 
wishes to thank the United States for its continuous financial and 
political support to ODIHR in relation to the trial monitoring 
portfolio, given the complexity and mid- to long-term duration of these 
activities. In this regard, I would also like to welcome the openness 
of the United States authorities to host an ODIHR mission to assess the 
possibility of observing proceedings before the Military Commissions at 
the Guantanamo Bay Naval Base.
    Together with the OSCE Special Co-ordinator on Trafficking in Human 
Beings, ODIHR has already for many years been at the forefront of the 
international fight against trafficking in human beings by pioneering, 
developing and promoting a human rights-based approach in the 
development of anti-trafficking policies and legislation of OSCE 
participating states, including National Referral Mechanisms, access to 
justice and compensation for victims. ODIHR was also one of the first 
international organizations to raise the issue of trafficking for 
labour exploitation and trafficking in men, by advocating for a 
diversified approach to the identification of and assistance to 
trafficked persons depending on their sex and age, as well as on the 
type of trafficking. With this aim in mind ODIHR is trying to build the 
capacity of lawyers, specialized in trafficking cases, advocates the 
establishment of compensation funds for victims of trafficking, and 
encourages the OSCE participating States to explore the possibility of 
filling such funds with confiscated criminal assets from human 
trafficking cases.
    In accordance with the 2004 OSCE Gender Action Plan, ODIHR has a 
strong mandate in relation to the promotion of women's political 
participation in the OSCE region and the strengthening of national 
mechanisms for the promotion and protection of gender equality. ODIHR 
takes a holistic approach to gender, striving to mainstream gender into 
all its programmatic activities and applies a strategic approach to 
women's political empowerment in the form of local capacity building, 
networking and knowledge sharing among gender advocates and political 
actors. The aim of increasing awareness among OSCE participating States 
of the importance of gender equality forms the core of our two main 
programmes on ``Human Rights, Women and Security'' and ``Increased 
Participation of Women in Politics''. Furthermore, ODIHR's Election 
Observation Mission Reports are gender mainstreamed, and Gender 
Analysts form an integral part of EoMs in the OSCE region. Given 
ODIHR's increased engagement with the OSCE's Mediterranean Partners for 
Co-operation, ODIHR has also worked on transferring good practices and 
the experience of the OSCE participating States in promoting women's 
political participation to the Mediterranean partner countries, in 
particular to Tunisian counterparts upon request. ODIHR has also 
developed a plethora of tools in support to OSCE participating States 
and its Field Operations in the implementation of gender commitments, 
such as the Baseline Study ``Gender Equality in Elected Office: A Six-
Step Action Plan'', the ``Handbook for National Human Rights 
Institutions on Women's Rights and Gender Equality'' as well as the 
upcoming ``Comparative Study on Women structures for MPs in the OSCE 
Region'' and the ``Handbook for Women in Political Parties'' to be 
published in 2013.
    Freedom of Peaceful Assembly and Association has come under 
increasing strain in the OSCE region since 2008. In some OSCE 
participating States, the space for free expression of these 
fundamental rights is shrinking as a result of restrictive legislation 
and practices, including increased scrutiny and monitoring of civil 
society activity. Another troubling development is the tendency to 
``brand'' legitimate exercises of freedom of peaceful assembly and 
association as the work of ``extremists'' or ``foreign agents''. ODIHR 
is now launching a joint activity with the Venice Commission of the 
Council of Europe to develop guidelines on freedom of association, 
which will be designed to assist States in implementing their important 
commitments in this area and to complement our existing Guidelines on 
Freedom of Peaceful Assembly.
    Ladies and Gentlemen,
    For nearly two decades now, ODIHR has vigorously raised attention 
to the plight and challenges of our Roma and Sinti communities, and 
provided concrete assistance to the OSCE participating States in 
meeting their Roma and Sinti commitments. In 2008, I reported on the 
first ODIHR Status Report assessing the participating States' efforts 
after five years' implementation of the landmark 2003 OSCE Action Plan 
on Improving the Situation of Roma and Sinti within the OSCE Area. This 
year, we are marking the tenth anniversary by preparing the second 
Status Report for release this fall. The past five years have seen a 
continued increase in terms of initiatives and programmes, with 
considerable funds devoted to the improvement of the socio-economic 
situation of Roma communities. However, and notwithstanding all the 
resources invested, a preliminary reading of the background data for 
the second Status Report indicates that Roma and Sinti overall remain 
vulnerable, with sizeable communities living in abject poverty and on 
the margins of society (including in many otherwise well-developed 
countries).
    Despite progress made by some participating States to combat hate 
crimes, much more needs to be done to develop the capacity to 
effectively address such crimes. In many instances, law enforcement 
agencies and officers lack the required knowledge and skills to 
recognize hate crime to be able to offer effective and adequate victim 
protection. For this reason, victims are often reluctant to report hate 
crimes to law enforcement agencies with the result that the magnitude 
of this problem is underreported and the victims are left without 
justice. To support the efforts of the participating States to address 
this issue, ODIHR has particularly focused on training of police. Our 
Training against Hate Crimes for Law Enforcement (TAHCLE) has to date 
included training of more than 70,000 police officers in Bulgaria, 
Croatia, Poland, and, with the support of the OSCE Mission in Kosovo, 
training of police officers in Pristina. In 2013, ODIHR is planning to 
work in Albania, Italy, Montenegro and Ukraine on this issue.
    Combating hate crimes is only one of our ongoing activities in the 
field of promoting tolerance and non-discrimination. We continue to 
develop a variety of tools and activities to assist the participating 
States in combating anti-Semitism, discrimination against Muslims, as 
well as of Christians and members of other religions. Next month, for 
instance, we will help organize a conference in Berlin on the security 
of Jewish communities.
    In some parts of the OSCE region, there are significant obstacles 
to exercising freedom of religion or belief. In some states, for 
example, communities cannot register and obtain permission to operate 
due to bureaucratic and restrictive procedures. In 2012, our Office has 
launched training seminars for government officials and civil society 
to raise awareness about international standards. We are also 
developing guidelines on the recognition of religious or belief 
communities in collaboration with the Council of Europe's Venice 
Commission to present examples of good practices in this field. We hope 
that the recently completed overhaul of the OSCE/ODIHR Advisory Panel 
of Experts on Freedom of Religion or Belief will strengthen our ability 
to assist participating States in meeting their obligation to ensure 
that everyone is able to exercise their fundamental freedom to believe 
what they wish, when they wish and where they wish.
    Since my last appearance in 2008, ODIHR has also witnessed the 
impact of the ``Arab Spring'' on the OSCE region, and the call for 
increased engagement by OSCE participating States with its 
Mediterranean Partners, as outlined in the 2011 Ministerial Council 
Decision No. 5/11. In response, ODIHR is facilitating the exchange of 
good practices and experiences between OSCE participating States and 
the Mediterranean Partners and is providing expert assistance in the 
fields of election observation, political party regulation, 
legislation, human rights monitoring and women's political 
participation. ODIHR projects promote democratization and increased 
understanding of the human dimension upon request from Mediterranean 
Partner countries. ODIHR's recognized expertise and its co-operation 
with the Council of Europe's Venice Commission in reviewing legislation 
has been seen by OSCE Mediterranean Partners as a valuable contribution 
to their reform efforts. Some of our key tools, such as the Guidelines 
on Political Party Regulation, the Guidelines on Freedom of Peaceful 
Assembly, the Guidelines on Assembly Monitoring and our hallmark 
Election Observation Handbooks are increasingly being made available 
also in Arabic.
    Ladies and Gentlemen,
    Needless to say, this presentation would not be complete without 
sharing some recent highlights from what has been a signature activity 
for more than two decades since the Office was first established as the 
Office for Free Elections. Over these years, ODIHR has developed a 
comprehensive methodology for professional, independent and impartial 
election observation, one that many other major actors, including the 
EU, have based their own methodology on.
    Among the many election observation missions we deployed over 
recent years, the last parliamentary and presidential elections in the 
Russian Federation stand out. Their observation was a major undertaking 
under complex and challenging circumstances. As you will recall, ODIHR 
was not able to observe those elections in 2007 and 2008, and we had to 
overcome that legacy. The challenges involved, however, were met, and I 
am proud of the two final reports that these two missions produced, and 
confident in the value of the recommendations they contain.
    This year, the ODIHR has already deployed election observation 
activities to ten participating States (Armenia, Bulgaria, the Czech 
Republic, Iceland, the former Yugoslav Republic of Macedonia, Malta, 
Monaco, and Montenegro, as well as on-going Election Observation 
Missions in Albania and in our newest participating State, Mongolia). 
We are also looking forward to upcoming elections later this year in 
Austria, Azerbaijan, Georgia, Germany, Norway, Tajikistan, and 
Turkmenistan. We continue our efforts to follow electoral developments 
across the OSCE region and I am pleased to note that the ODIHR has now 
observed elections in 56 of the 57 OSCE participating States.
    It has been said many times that election observation is not an end 
in itself, but is intended to assist participating States in 
implementing their election-related OSCE commitments. In the 1999 
Charter for European Security, participating States committed 
themselves ``to follow-up promptly ODIHR's election assessments and 
recommendations''. To promote more effective follow-up, ODIHR now 
regularly presents its final reports with findings and recommendations 
``in country'' following each electoral process. Such follow-up visits 
serve to discuss ODIHR's election recommendations as well as possible 
areas of future co-operation and assistance. Most recently, visits have 
taken place to present final reports in Belarus, Georgia, Montenegro, 
Spain and Ukraine. This week, we are presenting the final report on the 
United States elections to a wide range of interlocutors here in DC. 
Let me at this point thank you, the Helsinki Commission for the support 
we have received over the years--not only for the activities we 
undertake in Europe and Asia, but also here in the United States. By 
inviting ODIHR to present its findings and recommendations in this 
country, the United States is again demonstrating that it stands behind 
the commitments it has made and is ready to show an example. We look 
forward to good co-operation and positive discussions in the week 
ahead.
    Let me also reaffirm that ODIHR relies on the continued co-
operation of all participating States in seconding qualified short-term 
and long-term observers to our missions. As many of you will know, 
ODIHR was forced to cancel the Limited Election Observation Mission 
(LEOM) to Italy earlier this year due to a lack of secondment of long-
term observers (LTOs) from participating States. The involvement of 
LTOs permits observation of the administrative preparations for 
elections, the campaign, adjudication of complaints, and the media and 
gives all participating States the opportunity to take part in election 
observation missions, as is part of their common commitment to each 
other. ODIHR therefore appeals to participating States to review their 
rules, policies, and practices regarding the secondment of long-term 
and short-term observers so as to enable election observation 
throughout the OSCE area, in line with the 2010 Astana Commemorative 
Declaration that reiterated that ``all OSCE principles and commitments, 
without exception, apply equally to each participating State.''
    I would also like to take this opportunity to recognize the 
valuable contribution of parliamentarians to election observation, and 
in particular our co-operation with the OSCE Parliamentary Assembly. As 
I have emphasized before, we are committed to partnership, based on the 
1997 co-operation agreement. As the participating States stressed when 
they endorsed the 1997 agreement, in Ministerial Council Decision 19/
06, election observation is a common endeavour involving ODIHR, the 
OSCE PA and other parliamentary bodies. I can assure you all that ODIHR 
remains committed to work in this spirit of co-operation and 
partnership. I also fully agree with the view, often voiced by the 
previous President of the OSCE PA, Petros Efthymiou, that the PA and 
ODIHR have complementary roles to play. And I note that under his 
presidency of the PA our co-operation was generally good and smooth.
    Ladies and Gentlemen,
    I started this presentation by reflecting on some of the main 
developments and challenges we have witnessed since my last hearing 
here, and on the work of my Office and the OSCE as a whole in 
addressing those and future ones. When I took up my tenure, my point of 
departure was that the Helsinki Final Act, in its spirit and its 
letter, and the commitments undertaken in Copenhagen, Paris, Moscow and 
elsewhere, established that the protection of human rights is the first 
responsibility of government, and that the only system of government is 
one that is transparent, democratic and accountable. I also stressed 
that every democracy is ``condemned'' to forever being ``work in 
progress''; I highlighted the uniqueness of the OSCE as a platform for 
peer-review; and the ability and value of its institutions and missions 
to be of assistance and support when asked by some or tasked by all.
    Some of those most directly involved with and frustrated over the 
recent inability of the decision-making machinery in Vienna to produce 
timely budgets, agendas for events or human dimension decisions, may 
question whether the OSCE has lost its relevance. As the Director of 
the OSCE's principal institution in the human dimension, I certainly 
understand, share and feel this frustration.
    After five years as ODIHR Director, I nevertheless remain fully 
convinced that neither is the OSCE broken, nor has it lost its 
relevance. On the contrary, its principles, values and achievements 
remain as relevant as ever. And so does its potential. I am equally 
convinced that by employing the same determined leadership and formula 
that produced the Helsinki Final Act in the midst of the Cold War, the 
current mistrust and suspicions can also be overcome, for the same 
mutual benefit of all participating States, based on high standards, 
and not double-standards.
    Nobody could deny the importance of United States leadership in the 
promotion of human rights, freedoms, the rule of law and democracy over 
the past century, not least within the framework of the OSCE. But as 
for all leadership, it is the most effective when done by example.
    In January 2012, on the tenth anniversary of the transfer of the 
first detainees to the US naval base in Guantanamo Bay, it was with 
both regret and dismay I had to stress that universal human rights 
standards require that the detention of terrorist suspects shall be 
accompanied by concrete charges and the persons detained under these 
charges shall be immediately informed of them and brought before a 
competent judicial authority. I also called for a swift closure of 
Guantanamo, prompt prosecution of the remaining detainees in accordance 
with international fair trial standards, or their release.
    Recently, President Obama echoed what international human rights 
and democracy movements and organizations have been saying for years, 
that Guantanamo ``hurts the United States in terms of its international 
standing'' and that the facility ``likely created more terrorists 
around the world than it ever detained''. The United States has 
traditionally aspired to play a role as both a leader and example for 
others; if it wishes to do so, it must move, without further delay, 
towards closing of the Guantanamo detention centre.
    In conclusion, I would like to thank you once more for your kind 
invitation to address you here today; I look forward to our discussion 
and our continued co-operation for the remainder of my term in Office.
    Thank you for your kind attention.
?


 
                                     

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><{<{<</SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><{<{<</SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><{<{<</SUP>

http://www.csce.gov @HelsinkiComm 

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
